<html>
<title> - DRUG ENFORCEMENT ADMINISTRATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                    DRUG ENFORCEMENT ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2014

                               __________

                           Serial No. 113-109

                               __________

         Printed for the use of the Committee on the Judiciary


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://judiciary.house.gov
      
                                    ______

                         U.S. GOVERNMENT PRINTING OFFICE 

89-809 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
   
   
   
   
   
   
   
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
SPENCER BACHUS, Alabama              SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUUL LABRADOR, Idaho                JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina       DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

Subcommittee on Crime, Terrorism, Homeland Security, and Investigations

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

                  LOUIE GOHMERT, Texas, Vice-Chairman

HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
SPENCER BACHUS, Alabama              Virginia
J. RANDY FORBES, Virginia            PEDRO R. PIERLUISI, Puerto Rico
TRENT FRANKS, Arizona                JUDY CHU, California
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TREY GOWDY, South Carolina           KAREN BASS, California
RAUUL LABRADOR, Idaho                CEDRIC RICHMOND, Louisiana

                     Caroline Lynch, Chief Counsel
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 18, 2014

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable Tom Marino, a Representative in Congress from the 
  State of Pennsylvania, and Member, Committee on the Judiciary..     3
The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Ranking Member, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations.................................................     4
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     6

                                WITNESS

The Honorable Michele M. Leonhart, Administrator, Drug 
  Enforcement Administration
  Oral Testimony.................................................     9
  Prepared Statement.............................................    12

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Robert C. ``Bobby'' Scott, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, Homeland 
  Security, and Investigations...................................    25
Additional Material submitted by the Honorable Robert C. 
  ``Bobby'' Scott, a Representative in Congress from the State of 
  Virginia, and Ranking Member, Subcommittee on Crime, Terrorism, 
  Homeland Security, and Investigations..........................    39

                                APPENDIX
               Material Submitted for the Hearing Record

Questions for the Record submitted to the Honorable Michele M. 
  Leonhart, Administrator, Drug Enforcement Administration.......    46

 
                    DRUG ENFORCEMENT ADMINISTRATION

                              ----------                              


                      THURSDAY, SEPTEMBER 18, 2014

                        House of Representatives

                   Subcommittee on Crime, Terrorism, 
                 Homeland Security, and Investigations

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 11:13 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Bob 
Goodlatte (acting Chairman of the Subcommittee) presiding.
    Present: Representatives Goodlatte, Chaffetz, Gowdy, Scott, 
Conyers, Pierluisi, and Chu.
    Also Present: Representative Marino.
    Staff Present: (Majority) Caroline Lynch, Chief Counsel; 
Robert Parmiter, Counsel; Allison Halataei, Parliamentarian & 
General Counsel; Brian Northcutt, Counsel; Alicia Church, 
Clerk; (Majority) Ron LeGrand, Counsel; Vanessa Chen, Counsel; 
Danielle Brown, Parliamentarian; and Veronica Eligan, 
Professional Staff Member.
    Mr. Goodlatte. Good morning. The Crime, Terrorism, Homeland 
Security, and Investigations Subcommittee will come to order. 
Without objection, the Chair is authorized to declare recesses 
of the Subcommittee at any time, and we welcome our witnesses 
today.
    I will begin by recognizing myself for an opening 
statement. Welcome, Administrator Leonhart, to your first 
appearance before the House Judiciary Committee since June of 
2012. We thank you for your service, and are happy to have you 
here with us today.
    Just last week, this Committee reported two bills that 
directly affect DEA operations. H.R. 4299 addresses concerns 
that I and other Members have with the increasing length of 
time DEA has expended in recent years to schedule new 
controlled substances, thus delaying patient access to new 
therapies.
    Reducing these scheduling time frames is important, but it 
should not be achieved by eliminating the Drug Enforcement 
Administration's critical role in the scheduling process. The 
substitute amendment I offered in markup codified a reasonable 
shorter scheduling time frame while preserving its vital role 
in the scheduling process.
    H.R. 4771 adds 25 new substances to the list of anabolic 
steroids in the Controlled Substances Act. In cooperation with 
our Democratic colleagues, the Judiciary Committee unanimously 
approved a substitute amendment to remove an unnecessary and 
largely redundant criminal penalty and streamline the civil 
penalties for the illicit manufacture, distribution, and 
dispensation of these substances.
    Earlier this year, this Committee collaborated with our 
Energy and Commerce Committee colleagues on another piece of 
legislation, H.R. 4709, which streamlines the process for the 
revocation or suspension of a registration to manufacture, 
distribute, or dispense controlled substances.
    It is indisputable that our Nation is facing a public 
health crisis due to prescription drug abuse, and we know that 
much of the illicit activity that diverts prescription drugs 
from the legitimate supply chain happens in the United States. 
However, we cannot solve that problem by simply cutting off 
legitimate access to prescription drugs.
    While H.R. 4709 is not a perfect bill, and I invite DEA's 
additional comments to improve the bill, we must ensure that 
Federal law punishes the bad actors who illicitly divert drugs 
from the supply chain while protecting legitimate, law abiding 
businesses.
    Under my leadership, this Committee will continue to 
conduct robust oversight of the DEA to ensure that vigorous 
enforcement of our Federal drug laws does not compromise 
responsible regulation of prescription drugs and patient access 
to life improving or even life saving medications.
    Unfortunately, vigorous enforcement of our Federal drug 
laws has been repeatedly compromised by this Administration. 
President Obama and Attorney General Holder have repeatedly 
demonstrated their disregard for the Constitution and the 
founding principle of separation of powers.
    They have circumvented the legislative process, ignored the 
will of Congress and the American people, and usurped the 
constitutional role of the legislative branch by unilaterally 
changing or ignoring Federal laws with which we disagree.
    These policies have touched many areas and taken many 
forms, not the least of which is the frontal assault on Federal 
drug enforcement and sentencing.
    Since 2009, and at the specific direction of Attorney 
General Eric Holder, the Justice Department has issued 
directives and memos with the goal of softening its enforcement 
of Federal drug laws to a level not seen in the 40 year history 
of the Drug Enforcement Administration.
    Specifically, the Attorney General and Deputy Attorney 
General have directed Federal prosecutors to not pursue cases 
against certain offenders, even though they violated Federal 
law.
    Directed Federal prosecutors to selectively enforce Federal 
financial crimes against institutions handling marijuana 
proceeds, directed Federal prosecutors not to allege drug 
quantities in cases where the quantity could potentially 
trigger mandatory minimum sentences.
    Directed Federal prosecutors not to object to motions by 
defense counsel to apply lower proposed sentencing guidelines, 
and initiated a campaign to solicit clemency petitions from an 
entire class of Federal drug offenders.
    Whether we agree on the policy is beside the point. The 
President has a constitutional duty to take care that the laws 
be faithfully executed. The ``take care'' clause requires the 
President to enforce all constitutionally valid acts of 
Congress regardless of his own Administration's view of their 
wisdom or policy.
    These unilateral executive actions have put the DEA, and 
especially its line agents, in an impossible position. They 
must now choose between doing their job and obeying their boss.
    As an example of this Hobson's choice, we need look no 
further than the testimony of the witness that appears before 
us today.
    In testimony before the Senate Judiciary Committee on April 
30, 2014, Administrator Leonhart refused to support legislation 
to slash mandatory minimum sentences for drug trafficking 
offenses when she remarked ``Having been in law enforcement for 
33 years and a Baltimore City police officer before that, I can 
tell you that for me and for the agents that work for DEA, 
mandatory minimums have been very important to our 
investigations.''
    Following her testimony, it has been well documented that 
Ms. Leonhart was ``called in'' by the Attorney General for an 
``one on one chat about her recent insubordination.'' 
Apparently, in this Administration, a dedication to enforcing 
the law amounts to ``insubordination.''
    The selective enforcement of Federal law and lack of 
respect for the constitutional separation of powers has become 
a hallmark of the Obama administration. It is a source of 
profound concern for me and the Members of this Committee.
    Again, it is Congress' responsibility to make policy 
decisions about whether to address mandatory minimums and other 
hot button items. It is the Administration's responsibility to 
enforce the laws.
    Administrator Leonhart, I look forward to your testimony 
regarding the challenges facing the DEA today.
    In consultation with the Ranking Member of the 
Subcommittee, I ask unanimous consent to allow me to yield 
briefly to the gentleman from Pennsylvania, who is not a Member 
of this Subcommittee but is a Member of the full Committee, and 
is keenly interested in the issues before us today, and who 
also needs to slip away to another Committee.
    So, without objection, I now recognize the gentleman from 
Pennsylvania, Mr. Marino, for his comments.
    Mr. Marino. Thank you, Chairman. Thank you, Ranking Member. 
I truly appreciate this. Administrator, thank you for being 
here. Thank you for what the professionals at DEA do to fight 
the illegal distribution of narcotics.
    There are heroes in your agency, and I have worked with 
them directly. I cannot overstate my respect for the DEA and 
its mission.
    My congressional colleagues, Chu, Blackburn, Welch, and I 
authored a bill that will clarify the responsibilities of the 
legitimate prescription supply industry and facilitate 
collaboration. Our bill passed the House unanimously - 
unanimously. Today, companion legislation will be introduced in 
the Senate by Senators Hatch and Whitehouse.
    Let me say this with the utmost respect. Congress is 
sending the DEA a message. You should take a serious look at 
your regulatory culture and seek collaboration with legitimate 
companies that want to do the right thing, legitimate 
companies.
    Big fines make headlines, but that is all they do. Press 
releases do not save lives.
    It is my understanding that Joe Rannazzisi, a senior DEA 
official, has publicly accused we sponsors of the bill of 
``supporting criminals.'' This offends me immensely. You know 
before coming to Congress I was a prosecutor and an United 
States Attorney. I worked to put away violent felons and drug 
dealers.
    I ask that you commit to me today that you will look into 
this and get back to me on whether you think that statement is 
acceptable behavior. Such conduct is not acceptable and it is 
unbecoming of the DEA, an agency that I have the utmost respect 
for. I would like to hear from you on this in writing after 
this hearing.
    Finally, at our April 8 Judiciary Committee oversight 
hearing, the Attorney General suggested he should meet with 
industry representatives and asked me to facilitate that. I 
have attempted to do that but to date, no such meeting has 
taken place. I am disappointed that DOJ staff has not made this 
a priority, and I will be following up with a letter reminding 
the Attorney General of our exchange and his personal 
commitment.
    Chairman Goodlatte, Ranking Member Scott, thank you so 
much, and I yield back.
    Mr. Goodlatte. I thank the gentleman, and it is now my 
pleasure to recognize the Ranking Member of the Subcommittee, 
the gentleman from Virginia, Mr. Scott, for his opening 
statement.
    Mr. Scott. Thank you, Mr. Chairman. First, I want to thank 
you for cooperatively working with the Minority last week to 
develop bills on drug scheduling that we could all support. The 
original versions had several problematic provisions which you 
addressed without diluting the effectiveness of the 
legislation.
    I am pleased to join you this morning in convening this 
oversight hearing on the Drug Enforcement Administration, and I 
would like to thank Administrator Leonhart for her years of 
dedicated service and for appearing before us today. I must 
also thank the thousands of dedicated DEA employees who enforce 
our laws every day, many of whom are putting their lives on the 
line to do so.
    The DEA is involved in drug enforcement activities all over 
the world. However, it is not clear that all of these 
activities are as effective or as important as others in 
stopping or reducing the scourge of drug use.
    In general, there are supply side strategies and demand 
side strategies to reduce drug use. Research indicates that 
demand reductions through prevention, education, and treatment 
can be much more effective than supply side reduction through 
interdiction and law enforcement efforts.
    I am hoping the Administrator will be able to shed some 
light on DEA's strategy with respect to prevention and 
intervention strategies and what works and what does not work.
    One of the big problems we have in this country with 
illegal drugs as well as illegal use of prescription drugs is 
that there is a huge demand for them. The history of the war on 
drugs shows us two things. First, if there is a demand for the 
product, suppliers will find a way to provide it, no matter 
what cost or no matter what the sanctions.
    Second, the large amounts of drugs interdicted or captured 
annually represents only a small fraction of the drugs being 
trafficked. In fact, evidence suggests that the street price 
for some of the most dangerous drugs has actually gone down 
while purity has gone up, and drug use has increased or stayed 
about the same.
    Therefore, the so-called ``war on drugs'' has had 
negligible effect on the drug trade at the highest levels but 
it has imprisoned legions of street level dealers and users. 
Given that we have already spent billions of dollars without a 
significant impact, the question remains how much more would we 
have to spend in order to achieve significant results.
    While drug use in all major categories, among White 
Americans, is as high or higher than the drug abuse among Black 
and Hispanic Americans, the vast majority of those imprisoned 
for drug violations are Black and Hispanic.
    The war on drugs has been waged almost exclusively in poor 
communities of color, even though the data shows that 
minorities are no more likely to use illegal drugs or commit 
crimes. Black Americans make up 12 percent of the U.S. 
population, but almost 50 percent of those are incarcerated for 
drug violations.
    Drug convictions alone make up about two-thirds of the 
increase in the Federal population that has exploded over the 
last few years. The excessive and discriminatory sentencing 
penalties from drug convictions are driven mainly by mandatory 
minimums and also by consecutive counts and enhancements that 
are so Draconian that many are serving life sentences or the 
equivalent in years, even for first time, low level offenders.
    In fiscal year 2012, 16 percent of convicted drug 
defendants were convicted of offenses carrying a mandatory 
minimum penalty. These harsh penalties were intended to be used 
against kingpins and leaders and criminal syndicates.
    In reality, data from the U.S. Sentencing Commission shows 
they are used against couriers, street level dealers, and 
addicts. More than half of these defendants had the lowest 
criminal history category at the time of their convictions.
    Mandatory minimums are sound bytes masquerading as crime 
policy. They sentence people before they are even charged or 
convicted based solely on the name of the crime. No 
consideration is given to how minor the role may be that one 
played or whether or not they are a first offender, a minor, or 
an abused woman under the control of a violent boyfriend.
    Even if the prosecutor, the judge, the defense counsel, and 
probation officer all agree that a mandatory minimum is too 
severe for a particular offender in a specific case, there is 
no choice. The judge's hands are tied and the judge must impose 
the mandatory minimum as a matter of law.
    All the research we have shows that mandatory minimums 
waste money, disrupt rational sentencing considerations, 
discriminates against minorities, and often require judges to 
impose sentences that simply violate common sense when compared 
to traditional proportional sentencing.
    As a result of the emotional appeal of the ``tough on 
crime'' policies, the United States has the dubious distinction 
of being the world's leader in incarceration, jailing 700 
people for every 100,000 population. Most countries incarcerate 
about 100. The closest competitor is Russia at about 600, China 
locks up about 116 per 100,000, India, about 36.
    Research on the states estimates that any ratio over 350 
per 100,000, for any ratio above that, the crime reduction 
value begins to diminish. Anything over 500 per 100,000 becomes 
counterproductive, messing up so many families, wasting so much 
money, having so many people with felony conviction records 
that you are actually adding to crime, not reducing crime. That 
is at 500 per 100,000. The United States' average is over 700.
    When we look at the lock up rate in the minority community, 
it is even worse. Ten states lock up African Americans at the 
rate of approximately 4,000 per 100,000. The rates of 
incarceration we have in this country and looking at crime and 
simply suggesting that the main problem we have is we are not 
locking up enough people just does not meet with science, 
experience or common sense.
    So, one is left to wonder about the motivation to continue 
what amounts to a failed system in reducing drug trafficking 
and abuse when we consider how ineffective and costly the 
punitive supply reduction strategy has been.
    Reliance on incarceration is not free. When a drug dealer 
gets sentenced to 50 years at $30,000 a year, that amounts to 
over approximately $1.5 million. The day after the drug dealer 
is sent away, his territory is taken over, so you really have 
not done anything in reducing crime.
    That same $1.5 million, if it had gone to the Boys and 
Girls Clubs, who held their annual congressional breakfast 
yesterday, could have been put to much better use. Maybe if we 
had just spent $500,000 locking up the guy and had $1 million 
for the Boys and Girls Clubs, we could put hundreds of young 
people on the right track and kept them on the right track 
rather than the excessive incarceration for just one person.
    Those are some of the things that I hope we discuss today, 
Mr. Chairman, and I yield back the balance of my time.
    Mr. Goodlatte. I very much thank the gentleman for his 
comments, and I am now pleased to recognize the Ranking Member 
of the full Committee, the gentleman from Michigan, the former 
Chairman of the Committee, Mr. Conyers, for his opening 
statement.
    Mr. Conyers. Thank you, Chairman Goodlatte and Ranking 
Member Scott. Welcome, Administrator Leonhart. Pleasure to have 
you here.
    The Drug Enforcement Administration is tasked with 
enforcing the most critical failing, in my mind, of our 
Nation's criminal justice system, namely the war on drugs.
    I want to discuss two things. First and foremost, the war 
on drugs has disproportionately impacted communities of color, 
and second, federalizing street crime undermines constitutional 
principles of limiting government prosecution to charges that 
cannot or should not be brought in state courts.
    To begin with, the collateral damage of the war on drugs 
has disproportionately harmed minorities, obviously. 
Admittedly, discrimination has permeated our Nation's history 
since its founding. The Constitution itself devalued slaves, 
former slaves, as three-fifths of a man. Through the Civil War 
and although the Civil War was fought to abolish slavery, Jim 
Crow in its wake codified disparate treatment as the supreme 
law of the land.
    So, we have been wrestling with this for quite a while 
historically. While it has been 60 years since Brown v. Board 
of Education struck down the abhorrent doctrine of separate but 
equal, and 50 years since the march on Washington and the 
passage of the Civil Rights Act, the casualties of our war on 
drugs continues to be separate and unequal.
    The malignant vestiges of racism, unconscious or not, lurk 
within our Federal criminal justice system. Criminal justice 
and drug enforcement are weeded out by human beings with real 
human failings, including bias and self interest. Not all of 
them but some of them.
    The statistics tell the story of the racially 
disproportionate impact of our Federal drug laws and policies. 
Our country has spent over $2.5 trillion on the war on drugs. 
Our Federal prison system is currently at 132 percent over 
capacity. Half of all Federal prisoners are drug offenders.
    In 2013, Blacks and Hispanics comprised almost 75 percent 
of all Federal drug offenders. Currently, almost 40 percent of 
all Federal prisoners are Black and 35 percent are Hispanic. 
Blacks are arrested for drug offenses at rates two to five 
times higher than Whites.
    This is despite the fact that national data shows that 
people of all races use and traffic drugs at about the same 
rate. People of all races use and traffic drugs at about the 
same rate, yet African American and Hispanic men and women are 
sentenced and imprisoned for Federal drug offenses at 
disproportionately higher rates for virtually every kind of 
drug.
    While only 4 percent of Federal crimes carry mandatory 
minimum sentences, 34 percent of those in Federal prison are 
serving mandatory sentences with Blacks and Hispanics, of 
course, receiving sentences that are often years longer than 
Whites in similar cases.
    Before we identify solutions, we must recognize how our 
laws and policies along with systemic problems writ large in 
our Federal system interact with the Drug Enforcement 
Administration's practices in the war on drugs to contribute to 
this disparate impact.
    No longer does Jim Crow and overt racism move the day, but 
rather euphemisms such as ``those who fit the profile,'' ``who 
raise reasonable suspicion,'' ``who reside in high crime 
areas,'' where stop and frisk policies are the norm.
    Now, to be fair, bias creeps in at every branch of our 
Federal Government, from the initial decision of where and whom 
to monitor, which cases are accepted for prosecution, which 
defendants to charge with mandatory enhancements, and 
ultimately which defendants receive upward or downward variant 
sentences.
    Particularly troubling to me from a civil liberties' 
perspective are the DEA's civil asset forfeiture practices. The 
Drug Enforcement Administration in conjunction with state 
authorities can seize cash and property from men and women who 
are not convicted, much less charged with a crime. This 
incentivizes state and local law enforcement agencies to engage 
in these seizures so as to apply the fruits of that bounty to 
their own budgets.
    The burden rests on the property owner to prove his 
innocence in a civil suit that costs frequently thousands of 
dollars in legal fees and months' imprisonment.
    Much like we saw in the DEA's Operation Pipeline in the 
1990's, the overwhelming majority of those targeted for those 
traffic stops are Black or Hispanic. Private contractors, such 
as Black Asphalt and Desert Snow, working with state and local 
authorities, have made it so driving while Black or Hispanic 
means that one is presumed guilty absent any evidence other 
than an officer's hunch based on someone's appearance.
    Our reforms need to eliminate this bounty hunting incentive 
and disparate impact that it causes.
    To declare success on the war on drugs, rather than 
continue policies that actually cause more harm than good, we 
must learn from the recent successes from our states and others 
around the globe.
    Our founding fathers recognized the value of delegating the 
general police power to the states and the important function 
that states serve as laboratories of innovation. We should 
permit these federalism principles to guide us in ensuring that 
Federal jurisdiction is limited, complimenting, but not 
supplanting state jurisdiction.
    I conclude by pointing out that many states and countries 
have examined similar troubling disparities in their conviction 
and sentencing data. In response, they eliminated or reduced 
mandatory minimums for drug offenses or diverted those cases to 
specialized drug courts and emphasized treatment and re-entry 
over incarceration.
    Their rewards have been not only billions in savings but 
also reductions in their crime, recidivism, and addiction 
rates.
    While these reforms may sound counterintuitive, they offer 
common sense, proportional, and evidence based responses to our 
current Federal programs and penalties that are discriminatory, 
destructive, and ultimately counterproductive.
    Thus, we should cooperate with the states to develop 
policies to determine whether offenses should be prosecuted in 
the state or Federal systems.
    So, accordingly, I look forward to Administrator Leonhart's 
testimony about how the DEA and Congress can best address the 
concerns that I have identified.
    I thank you, Mr. Chairman, and return any unused time.
    Mr. Goodlatte. The Chair thanks the Ranking Member and 
assures him that there was not any unused time. [Laughter.]
    And thanks him for an overly thorough exposition of the 
issues. I know the issue is important to him, so I wanted to 
let him finish his opening.
    Mr. Conyers. Thank you.
    Mr. Goodlatte. It is now my pleasure to introduce today's 
witness. Michele Leonhart was unanimously confirmed as the 
Administrator of the Drug Enforcement Administration in 
December of 2012, and she had been Acting Administrator since 
November of 2007, and served as the DEA's Deputy Administrator 
since 2004.
    Prior to that, she held several positions with the DEA's 
Senior Executive Service. She served as special-agent-in- 
charge of the DEA's Los Angeles Field Division from 1998 
through 2003, and special-agent-in-charge of the DEA's San 
Francisco Field Division in 1997 and 1998.
    As a career DEA special agent, Ms. Leonhart held several 
key positions as she moved through the ranks of the DEA. In 
1995, she was promoted to the position of assistant special 
agent in charge of the L.A. Field Division. She has had more 
than 30 years in law enforcement beginning her career as a 
Baltimore City police officer after graduation from college in 
Minnesota, with a Bachelor of Science in Criminal Justice in 
1978.
    As is the custom of this Committee, we will begin by 
swearing in the witness, so if you would please rise.
    [Witness sworn.]
    Mr. Goodlatte. Thank you very much. Let the record reflect 
that the witness answered in the affirmative, and your entire 
written statement will be entered into the record, and we ask 
that you summarize your testimony in 5 minutes or less. We have 
a timing light there on the table that will assist you in that 
information.
    Again, welcome to the Committee.

TESTIMONY OF THE HONORABLE MICHELE M. LEONHART, ADMINISTRATOR, 
                DRUG ENFORCEMENT ADMINISTRATION

    Ms. Leonhart. Thank you. Chairman Goodlatte, Ranking Member 
Conyers, Ranking Member Scott, Members of this Subcommittee, 
thank you for the opportunity to testify before you this 
morning.
    This Committee's support for the Drug Enforcement 
Administration has been enormously important to us. I welcome 
this opportunity to continue working with you and share with 
you our recent accomplishments and our challenges.
    DEA in our unique capacity around the world is responsible 
for enforcing the provisions of our domestic controlled 
substance and chemical diversion trafficking laws, and is 
honored to work closely with our state, local, Federal, and 
international counterparts.
    In recent years, DEA's investigations resulted in the 
arrest and conviction of major international criminals, 
including Viktor Bout, Monzer Al Kassar, Haji Bagcho, and even 
the former President of Guatemala, Alfonso Portillo.
    Most notably, DEA also supported the Mexican Government's 
apprehension earlier this year of ``El Chapo'' Guzman, the head 
of the world's largest drug trafficking organization.
    These individuals highlight just a few of the successful 
cases we have aggressively pursued each and every day. Yet, 
these law enforcement successes are only one part of the 
comprehensive strategy needed to address illicit drug use. A 
successful strategy must be comprehensive and include research, 
prevention, and treatment. There is no magic solution of the 
complex challenge of illicit drug use.
    This comprehensive strategic approach has been successful. 
According to an analysis by the Substance Abuse and Mental 
Health Services Administration, illicit drug use rates are 
lower by approximately one-third compared to 30 years ago, and 
since 2006, we have seen significant decreases in the number of 
past month users of cocaine.
    This does not mean that we are not facing real and 
significant challenges. Years of over prescribing prescription 
pain killers combined with decreased perceptions of risk have 
created millions of new addicts.
    DEA has responded not just with enforcement actions, but 
also pushed to reschedule Hydrocodone, a potent and addictive 
opioid. It is still readily available for legitimate use, but 
it is now subject to additional tracking, prescribing, and 
storage restrictions, which will minimize the potential for 
diversion.
    In addition, we have just released the final rule governing 
drug disposal. This rule expands the public's options to safely 
and responsibly dispose of their unused and unwanted controlled 
substance prescription medications, and will make DEA's semi-
annual take back days unnecessary.
    While we have seen some progress to our counter-
prescription drug abuse, we are beginning to see an increase in 
the trafficking of one of the more traditional drugs of abuse - 
heroin.
    After years of declining use, the availability and abuse of 
heroin is now increasing, especially among younger Americans. 
In response, DEA is systematically targeting high level heroin 
suppliers in partnership with state and local law enforcement 
authorities, and has seen a steady increase in heroin related 
enforcement efforts nationwide.
    Marijuana abuse is another grave concern for DEA, 
particularly because of changing public attitudes on its use. 
As you are aware, the Administration opposes marijuana 
legalization. Approximately 19.8 million Americans have used 
marijuana in the past month, more than any other illicit drug, 
and this includes nearly one out of 15 American high school 
seniors who are now nearly daily marijuana users.
    Consistent with the Administration's comprehensive approach 
to the issue, DEA also supports scientific research efforts and 
ensures that there is sufficient marijuana availability for 
research purposes through a robust process of providing 
Schedule I research registrations to qualified researchers. In 
fact, DEA has never denied a registration for a bona fide 
marijuana related research application.
    Looking forward, DEA will continue to build on the progress 
that we have made, and with our state and local partners, we 
will continue to target traffickers who operate in or whose 
drugs enter into our country.
    These investigations compliment and support our 
international partnerships where we target the most violent and 
prolific drug trafficking organizations in the world. It is 
clear to me as a career special agent and as DEA's 
administrator, that not only is our mission an essential 
element to our national drug control strategy and to our 
Nation's health, but also to the security of our country and 
our interests abroad.
    Thank you for your partnership, and I look forward to 
continuing to work with this Committee and Congress on these 
important issues. I look forward to answering your questions.
    [The prepared statement of Ms. Leonhart follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Goodlatte. Thank you very much for your testimony. I 
will begin the questioning. Is marijuana possession use or 
distribution, medically or otherwise, legal under Federal law?
    Ms. Leonhart. No, under Federal law, any growing, 
cultivation, distribution, transportation, importation of 
marijuana is against Federal law.
    Mr. Goodlatte. Despite the fact this Administration's 
current narrative in support of its position on sentencing 
reform relies on the supposition that too many low level, non-
violent drug offenders are being investigated, prosecuted and 
incarcerated federally.
    The Justice Department's own memo from last August 
providing guidance to Federal prosecutors stated that the 
Department of Justice has not historically devoted resources to 
prosecuting individuals whose conduct is limited to possession 
of small amounts of marijuana for personal use on private 
property.
    Is this statement consistent with current and past DEA 
enforcement priorities?
    Ms. Leonhart. DEA has never targeted drug users of any 
kind, especially marijuana users. We go after those that are 
trafficking, those that are members of organizations and 
cartels, those that are gang members that are supplying our 
communities. We do not target users. We do not target patients. 
We go after crime. We go after the drug traffickers.
    Mr. Goodlatte. In fact, in contrast to what this 
Administration would have us believe, the Federal prison system 
is not littered with scores of drug users ripped out of their 
bedrooms by DEA tactical teams for smoking marijuana; is that 
correct?
    Ms. Leonhart. That is correct.
    Mr. Goodlatte. The reality is those targeted for sentencing 
relief by this Administration are only those whose conduct, 
that is trafficking large quantities of controlled substances, 
would subject them to mandatory minimum sentences.
    You stated previously that based upon your 33 years of law 
enforcement experience you believe that mandatory minimum 
sentences play an important role in criminal investigations. I 
understand that you may have been discouraged from publicly 
taking this view, but how would the removal of this important 
tool affect the DEA's ability to carry out its mission?
    Ms. Leonhart. Well, let me say I do believe that mandatory 
minimums have been very effective in our work over these many 
years, and would hope we can retain that tool.
    On the other hand, I am aware that there are a number of 
initiatives that are being supported by the Attorney General to 
look at the bigger problem of prison overcrowding and to look 
at the money, the budget, now so much of it going to the Bureau 
of Prisons and not going to different programs that could help 
with recidivism, drug treatments and such in the prisons.
    So, balancing those two things, yes, it has been an 
effective tool, and it is very important especially with the 
type of trafficker and the level of trafficker that DEA 
investigates and arrests and indicts, that these folks, these 
very dangerous criminals, these cartel members, these gang 
members, serve appropriate sentences.
    Mr. Goodlatte. It has been an effective tool and it is the 
law of the land, is it not, at this point in time?
    Ms. Leonhart. Right now, yes.
    Mr. Goodlatte. As you know, switching to another subject, 
earlier this year, the House approved two amendments to the 
Commerce Justice Science Appropriations bill regarding 
industrial hemp.
    These amendments were largely in response to litigation 
between the DEA and the State of Kentucky over the seizure of a 
large number of hemp seeds. The amendments disallowed DEA from 
blocking the importation of hemp seeds and preventing the 
cultivation of industrial hemp in states where it is legal.
    If DEA does not find ways to improve the process for 
approving the importation of hemp or hemp seeds for legitimate 
research, it will continue to see the courts and Congress 
stepping in.
    What are your comments? What is being done to improve that 
situation?
    Ms. Leonhart. Well, DEA is looking at the Farm bill and 
harmonizing it with the Controlled Substances Act, and actually 
has worked with several states to ensure the provisions of the 
Farm bill, which allow institutions of higher education and 
state agriculture departments to grow industrial hemp for 
research purposes.
    We have been helping them, like we have offered to help 
Kentucky.
    Mr. Goodlatte. I expect though this is the beginning of a 
process in which we are going to see the commercial production 
of industrial hemp, which is a historic product and a product 
that is abundant, and legitimate uses for it, but it has posed 
a problem in terms of DEA enforcement because it is sometimes 
difficult to distinguish it from marijuana.
    So, what are the ongoing efforts to improve the ability of 
the DEA to set up a system where you can distinguish between 
the two so that this potential industry can continue to grow 
but not hamper the ability of the DEA to enforce the law?
    Ms. Leonhart. We can get there by working with the states. 
In this particular case with Kentucky, they did not obtain the 
right registration or permit to import seeds. We have worked 
with other states now to help them get the proper registration.
    By using the process, which is importing the seeds with an 
import registration and by DEA working with these agricultural 
departments and with these institutions of higher education, we 
then at DEA will have an idea of where the hemp is grown, but 
it does pose a very significant problem for not so much DEA, 
but really our state and local partners in that you cannot 
distinguish----
    Mr. Goodlatte. Let me reclaim my time because it has 
expired, and I just want to say that as this grows, literally 
and figuratively, this is an industry that is going to grow and 
you are not going to just have state departments of agriculture 
and research facilities at universities involved, but you are 
going to have lots and lots, maybe thousands and thousands of 
just average American farmers growing this crop.
    The DEA is going to have to make adjustments and they are 
going to have to be aggressive about finding ways to more 
easily distinguish between what is going to be legal and what 
is going to be illegal.
    My time has expired. I now am pleased to recognize the 
gentleman from Virginia, Mr. Scott, for his questions.
    Mr. Scott. Thank you, Mr. Chairman. Ms. Leonhart, there are 
a lot of studies that have concluded that mandatory minimums 
disrupt rational sentencing strategies, they waste the 
taxpayers' money, they discriminate against minorities, and 
frequently require judges to impose sentences that violate 
common sense.
    You have indicated that many times the mandatory minimums 
are appropriate but that is, of course, not the problem, 
because you do not need a mandatory minimum to impose an 
inappropriate sentence. The problem is it gets imposed on those 
for whom it is not appropriate.
    Are you suggesting that the mandatory minimums do not 
inflict inappropriate punishment on anyone?
    Ms. Leonhart. I am saying, you know, when asked the 
question had these been important tools, they have been for any 
of us in drug law enforcement. The decisions on what is an 
appropriate sentence for what a crime is is something that 
Congress takes up.
    As long as there are sentences that fit the crime, 
sentences that ensure that the kingpins, the major traffickers, 
and those that are causing the violence in our communities are 
serving consistent sentences, then that will assist us in doing 
our drug law enforcement----
    Mr. Scott. Are you suggesting they are not inflicted on 
people for whom there is no rational basis like girlfriends of 
kingpins getting decades of prison time? Are you suggesting it 
is never totally inappropriate, totally violative of common 
sense?
    Ms. Leonhart. I would say it depends on what their role was 
in the organization and were they violent traffickers, what 
were they trafficking, the quantities.
    Mr. Scott. The President's clemency program suggests that 
the Attorney General will consider clemency for those who have 
already served 10 years, low level, non-violent, essentially 
first offenders, and then it raises the question what is a 
``low level, non-violent first offender'' doing with 10 years 
to begin with.
    Ms. Leonhart. Again, DEA targets the baddest of the bad, 
the worse of the worse, the highest level trafficker.
    Mr. Scott. They get long sentences and that is appropriate. 
What about those for whom the sentence--are you suggesting that 
you do not inflict that on people for whom the sentence 
violates common sense?
    Ms. Leonhart. I think that----
    Mr. Scott. That is what the mandatory minimum requires the 
judge to do.
    Ms. Leonhart. I think it is important that there is 
discretion by the prosecutor on what they charge, and then it 
is up to the judge to sentence.
    Mr. Scott. Wrong. That is what a mandatory minimum requires 
a judge to impose, a sentence that violates common sense.
    Ms. Leonhart. And there are safety valves, protections, 
there are a number of things in sentencing that can be used, 
but I also support----
    Mr. Scott. Ten years for non-violent, low level, first 
offender. Does that make sense to you?
    Ms. Leonhart. I am sorry?
    Mr. Scott. Ten years, more than 10 years, because you do 
not get clemency until you have already served ten, and you 
have so much more time to serve that you need clemency; low 
level, non-violent, first offender.
    Ms. Leonhart. If that first offender was trafficking large 
quantities of heroin that were then spread across the 
community, I think that is an appropriate sentencing.
    Mr. Scott. Suppose it is just a low level somebody on the 
tangent, girlfriend taking a message? Are you suggesting that 
makes any sense at all?
    Ms. Leonhart. I would have to know the circumstances. I 
just know that----
    Mr. Scott. All circumstances because it is a mandatory 
minimum.
    Ms. Leonhart. If a mandatory minimum is appropriate for 
that crime, that is determined by the prosecutor who charges 
the crime, and these are decisions that are not taken into 
account when DEA investigates an organization.
    Mr. Scott. I mean, yeah, but we are making policy and you 
suggested there is some value to these mandatory minimums. Yes, 
sometimes the sentence is appropriate. Many times, it is just 
stupid. That is what the mandatory minimum requires the judge 
to do, and that is why we are trying to get rid of them. If 
people say, well, you know, they have value, it is kind of hard 
to make policy.
    Ms. Leonhart. The Attorney General is putting forward a 
number of initiatives under his Smart on Crime initiative, and 
one has to do with the sentencing and the clemency you are 
speaking of.
    He has assured us that the traffickers that we go after, 
the traffickers that are the most violent and are leaders of 
gangs, cartel leaders, and the most violent of those 
traffickers trafficking on our streets, will not fall under 
that and will serve their appropriate sentences.
    Mr. Scott. That is right, and those that do fall under that 
get stuck with the mandatory minimum anyway. That is the 
insanity of the mandatory minimum, whether it makes sense or 
not. I yield back.
    Mr. Gowdy [presiding]. I thank the gentleman from Virginia. 
Madam Administrator, I want to start by inquiring of you--I got 
a phone call from an old colleague of mine, a guy named Beattie 
Ashmore, yesterday, who told us a DEA agent that we work with 
named Randy Smith was maybe contemplating retirement. I could 
not imagine that. It seemed like last week that Randy was just 
starting.
    I want to start--I want to call a list of names to you, and 
if you would be gracious enough if you ever run into any of 
these folks--you do not have to write them down, I will give 
them to you--Mark Knight, Tony Duarte, Steve Russell, Bill 
Lunsford, Mark Pogh, Randy Smith, Kevin McLaughlin, Frank 
Smith, are just some of the DEA agents that I had the pleasure 
of working with.
    They represented your agency so well and so professionally, 
and it is such a difficult, hard, often times thankless job.
    If you ever have a chance to tell any of them that they are 
appreciated, I would be grateful to you for that.
    I want to touch on a couple of things real quickly, I want 
to finish--there is no one in Congress that I have more 
personal respect for than Bobby Scott, so I want to finish up 
by talking to you about mandatory minimums a little bit.
    Speaking of the DEA, we prosecuted two physicians way back 
in the day for prescribing or dispensing controlled substances 
outside the course of a legitimate medical practice. I do not 
hear from doctors much any more. I do from time to time, not in 
a complaining way, but I do from time to time hear from drug 
companies. It just strikes me that the best way to get at folks 
who are abusing legal prescription drugs is to target the 
physicians. That is who is writing the prescription.
    It has been done before. There were DEA diversion agents. I 
assume there may still be. Even if there are diversion agents, 
it is not that hard to go into a physician's office without 
establishing a doctor/patient relationship--one fact pattern, 
there was a prescription written on a cocktail napkin at a bar. 
Even I could win that case at trial.
    So, I just want to ask you to be mindful, and I am not 
going to call the name of the drug company, but it is one of 
the most well respected companies in my entire district, and I 
just do not want any of the drug companies--in interest of full 
disclosure, my father is a physician, I grew up around doctors 
and pharmacists. I have incredible respect for them.
    I do not want the message to be sent that we view them in 
the same light we view a doctor who is writing a prescription 
on a cocktail napkin for somebody he met at a bar.
    If there are reporting requirements, I am all for working 
with the drug companies. I just do not want them to feel like--
because my understanding is if you get a prescription, the 
pharmacist has a duty to fill the prescription, unless he or 
she has some reason to suspect it. You have a drug company even 
further removed that is just getting a request for X number of 
drugs so this pharmacist can fill that prescription.
    So, if you would look into that and just make sure that we 
are including the drug companies so that they feel like they 
are part of the solution rather than surrogates for doctors who 
are writing prescriptions they should not be writing.
    Ms. Leonhart. I can assure you that we actually view 
distributors and manufacturers, doctors, pharmacists, the whole 
gamut, everyone involved in this closed system of distribution, 
as partners in trying to resolve and tamp down on this 
exploding prescription drug problem.
    We have had a number of initiatives where we are working 
with companies so that they can better understand what those 
signals are, what those red flags are, on what a suspicious 
order would be.
    Many times, working with them, they are actually able to 
then put out warnings or cautions to the people they are 
distributing to that it is suspicious and they are not going to 
fill orders.
    So, those companies are very important to helping us in our 
fight to prevent diversion. We do not look at them as the 
enemy. We do not look at them as----
    Mr. Gowdy. I am sure you do not, and I know you will do a 
remarkable job of communicating to them that they are partners 
as opposed to targets.
    In the few seconds I have remaining, I do not recall it 
being a crime to be the girlfriend of a drug dealer. Did that 
become a crime since I left the U.S. Attorneys Office?
    Ms. Leonhart. That is why I said I needed to know what the 
circumstances were, what drugs were they distributing.
    Mr. Gowdy. There would not be anybody serving Federal 
prison time for simply being the girlfriend or boyfriend of a 
drug dealer, nor is there anyone serving Federal prison time 
for being the boyfriend or girlfriend of a drug dealer and 
accepting a telephone call.
    You have to be convicted of conspiracy. You have to be 
convicted of a RICO activity. You have to be convicted of 
possession with intent to distribute a controlled substance. 
There is nobody serving time for simply being the girlfriend or 
boyfriend of a drug dealer, much less serving the mandatory 
minimum. Agreed?
    Ms. Leonhart. Correct.
    Mr. Gowdy. All right. Why do you think--in your judgment, 
why do we have mandatory minimums? What was the impetus behind 
Congress deciding we should have mandatory minimums?
    Ms. Leonhart. I came on DEA as an agent after being a 
police officer in 1979, hired by DEA in 1980. Went through the 
Academy. At the time, I can tell you that when we did our 
cases, the criminal histories we received for the people that 
we were investigating would blow your mind. It was a revolving 
door in and out of the system.
    I also can tell you that working cases in the Midwest, more 
than often I was the undercover agent. It was also surprising 
to see, depending on where you were in the country, the 
different kinds of sentences that people would receive for the 
very same crime.
    So, to see the mandatory minimums kick in, you started to 
see more consistency. You also started to see that those that 
have been routine, you know, criminals in and out of the system 
and increasing their involvement in drug trafficking were 
finally stopped by the types of sentences that they were 
sentenced to.
    Mr. Gowdy. Well, I am well over time and I am going to--
yes, sir?
    Mr. Scott. Can I have a consent request?
    Mr. Gowdy. Yes, sir.
    Mr. Scott. Mr. Chairman, I ask unanimous consent to insert 
into the record case histories of girlfriends who have gotten 
caught up in taking messages--if you take a message, you are 
part of the conspiracy, and you are in fact sentenced based on 
the weight of the drugs that the boyfriend is dealing, which 
will result in decades of time for people who have no 
meaningful role in the conspiracy. I would like unanimous 
consent to insert those case histories into the record.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                               
                               __________
    Mr. Gowdy. I am grossly over time, and I am going to give 
all of my colleagues on the other side at least as much time as 
I took over.
    I am going to say again there is no one in Congress that I 
have more respect for than the gentleman from Virginia, who has 
been a champion on this issue for the entire time I have been 
in Congress, and if he says such cases exist, I believe him 
period.
    I would encourage them to pursue post-conviction relief, 
because they had a lousy criminal defense attorney, if all they 
did was take a telephone call and the relative conduct racked 
up and accumulated such that they reached a mandatory minimum.
    Before I recognize the next colleague, Madam Administrator, 
there are currently ways to get around mandatory minimums. 
There is Rule 35. There is the safety valve. I assume there are 
still 5K 1.1s, although the stated guidelines have changed.
    So, the notion that there is no way to get around a 
mandatory minimum even today is not accurate; right?
    Ms. Leonhart. That is correct.
    Mr. Gowdy. All right. The gentleman from Michigan, Mr. 
Conyers.
    Mr. Conyers. Thank you, Mr. Chairman. You startled me today 
with some of your testimony, Madam Administrator. I would like 
to find out if you are familiar with data from over 17 states 
that demonstrates eliminating or reducing mandatory minimums 
has not statistically affected rates of cooperation or pleas.
    Ms. Leonhart. I am not familiar with that data.
    Mr. Conyers. Well, I will put something in the record and 
give you some information on it.*
---------------------------------------------------------------------------
    *The information referred to, a report titled ``Justice 
Reinvestment Initiative State Assessment Report,'' is not reprinted in 
this hearing record but can be accessed at http://www.urban.org/
UploadedPDF/412994-Justice-Reinvestment-Initiative-State-Assessment-
Report.
pdf.
---------------------------------------------------------------------------
    Administrator Leonhart, it is fair to say based on 
Sentencing Commission data that the majority of drug 
convictions are of couriers, mules, drivers, low level dealers? 
So, I ask if you agree that existing state laws cover that 
conduct as well.
    Ms. Leonhart. That is correct.
    Mr. Conyers. Sure. Okay. Would you also agree that kingpins 
and leaders do not by any stretch of the imagination comprise 
the bulk of the convictions, drug convictions, in this area?
    Ms. Leonhart. When DEA pursues drug investigations, the 
goal is to disrupt and dismantle an entire organization. So 
yes, there are leaders, heads of organizations, lieutenants at 
the top, but there are also all those facilitators that help 
the organization in their crimes.
    Mr. Conyers. Yes, that is who gets caught, the little guys, 
the mules, drivers, low level dealers. I am talking about an 
examination which I will be doing after this hearing that 
kingpins--the people at the top very seldom get convicted. That 
is the issue that I am raising with you for a discussion at 
this time.
    Ms. Leonhart. Ranking Member, I would have to tell you that 
DEA has been very successful in taking down the leadership of 
organizations. Just look at our kingpin program. Of all of the 
kingpins identified since 2002, DEA has indicted over 75 
percent of them. Most of them do not even operate on our 
shores, and yet we have been able to arrest over 55 percent of 
them, and we have extradited to the United States over 33 
percent of them.
    So, we are investigating them. We are indicting them or 
arresting them, and we are actually extraditing them to the 
United States. They are prosecuted and they serve long 
sentences.
    Mr. Conyers. What I am suggesting is the leaders and 
kingpins do not comprise anywhere near the bulk of the 
convictions. I would like to follow this up with you or your 
staff in terms of a study of the statements that you just made 
in that regard.
    Let me turn now to this final question. The Drug 
Enforcement Administration is a component of the Department of 
Justice. So, would you agree that its official position 
supports the Smarter Sentencing Act which reduces mandatory 
minimums?
    Ms. Leonhart. We support the Attorney General's initiatives 
under Smart on Crime.
    Mr. Conyers. And that includes the reduction of mandatory 
minimums, which is part of the Smarter Sentencing Act?
    Ms. Leonhart. We support the initiatives forwarded by the 
Attorney General with his assurances that these will not impact 
the traffickers that the DEA spends the majority of our time 
going after, the kingpins, the violent traffickers, the gang 
leaders and such.
    Mr. Conyers. Well, I am going to have to compare that with 
some other comments that you have made because it seems to me 
that there is a certain contradiction between your response to 
this question and other comments that you have made here today 
before the Committee.
    Well, here is the Huffington Post. ``Obama's DEA Chief 
refuses to support drug sentencing reforms.'' I do not know how 
accurate it is and I do not know--it is dated from a few months 
ago. That is a part of the contradiction that bothers me 
between some of the statements and comments that you have made 
here today.
    We will be following this much more carefully now that you 
have had a chance to come before us.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gowdy. I thank the gentleman from Michigan. The Chair 
will now recognize the gentleman from Puerto Rico, Mr. 
Pierluisi.
    Mr. Pierluisi. Thank you, Chairman. Administrator, thank 
you for appearing before the Subcommittee. You and I met in 
February 2012 to discuss drug trafficking and related violence 
in Puerto Rico. In June of that year, we spoke again about this 
issue when you testified before this Subcommittee. Finally, we 
spoke by phone in April of 2013.
    I have also spoken on multiple occasions with Vito Guarino, 
the special-agent-in-charge of the DEA's Caribbean Division 
based in Puerto Rico.
    As you know, I have placed great pressure on DOJ and DHS to 
increase the level of resources dedicated to Puerto Rico, which 
is a major trans-shipment point for drugs destined for the U.S. 
Mainland.
    The need for Federal law enforcement agencies to enhance 
their efforts in Puerto Rico is particularly important because 
according to DEA, drug traffickers are increasingly using the 
Caribbean region to transport cocaine to the States.
    In late 2013, DEA officials were quoted as saying that the 
percentage of U.S. bound cocaine trafficked through the 
Caribbean had risen to 14 percent, which was double the 
percentage in 2012.
    Puerto Rico is an attractive jurisdiction for drug 
traffickers because the island is an American jurisdiction 
within the U.S. Customs Zone.
    The role of Federal law enforcement agents is simple, to 
make Puerto Rico a less appealing operational environment for 
drug traffickers. That requires the Federal Government to 
develop a comprehensive strategy and to allocate the resources 
required to implement that strategy.
    In terms of strategy, Congress has required ONDCP to 
prepare a counter-narcotics strategy for the Caribbean Border, 
with an emphasis on Puerto Rico.
    In terms of resources, prior to 2012, I criticized the 
Federal Government for not doing enough. Since 2012, however, I 
have seen some real progress. Make no mistake, the effect of 
these enhanced efforts can be measured in lives saved. 
Nevertheless, Puerto Rico's murder rate is still the highest in 
the country, averaging nearly two homicides a day.
    While I know DOJ is doing great work in Puerto Rico, I have 
candidly told Attorney General Holder and FBI Director Comey 
that the Department must do more. This is not just my personal 
opinion. In both the 2013 and 2014 CJS appropriations bills, 
Congress directed the Attorney General to assess whether there 
were sufficient DOJ personnel and resources assigned to Puerto 
Rico, to identify additional resources that may be necessary, 
and to brief Congress on the findings.
    In light of this background that I am giving you, I have 
two questions, and depending on time, I might follow up on the 
sentencing guidelines' issue.
    First, what specific steps, including any new initiatives, 
is DEA undertaking to combat drug related violence in Puerto 
Rico?
    And second, I understand that the DEA has incentives in 
place to encourage agents to relocate to Puerto Rico and to 
remain there beyond their initial period of service. However, I 
have learned from agents assigned to the Caribbean Division 
that there appear to be inconsistencies in how agents have been 
treated under this incentive program.
    I am concerned about the possible effect this could have on 
mission performance, so I would like you to give me your views 
on this issue.
    I see time is kind of expiring on me. On this sentencing 
guidelines issue, let's set the record straight, you are not 
the one setting policy on the Administration's handling of 
sentencing guidelines; correct?
    Ms. Leonhart. That is correct.
    Mr. Pierluisi. So, your views are just your personal views; 
is that correct?
    Ms. Leonhart. My agency views, my views as a law 
enforcement officer and as a DEA special agent, but these 
issues are presented by the Department of Justice, and we 
support the Attorney General in his initiatives.
    Mr. Pierluisi. And until Congress revises or changes the 
sentencing guidelines, your commitment is to go after major 
drug traffickers as opposed to low level drug offenders; is 
that correct?
    Ms. Leonhart. That is correct, and that has always been 
DEA's mission.
    Mr. Pierluisi. Even before your tenure? Are you sure of 
that?
    Ms. Leonhart. It has always been DEA's mission to go after 
organizations, major drug traffickers, and we even made a 
change in 2002. We started our own Smart on Crime initiative, 
and that was priority targeting and the kingpin list.
    Mr. Pierluisi. I will go back to Puerto Rico, but frankly, 
there is an issue here, because the statistics do not seem to--
they are not consistent with what you are claiming has been DEA 
positions for so long. There is a problem here because the 
statistics do not confirm that.
    But at least you are saying you are not going to be going 
after low level drug users, is that correct, or drug offenders?
    Ms. Leonhart. No, we go after organizations that are 
causing the most violence in a community, are responsible for 
the majority of the supply in a community, are the most 
violent, and those are the heads of organizations.
    Mr. Pierluisi. Thank you. Mr. Chairman, thank you for your 
indulgence. If you could allow the witness to address my 
questions on Puerto Rico, the ones that were specific about 
Puerto Rico, I would really appreciate it.
    Mr. Gowdy. Absolutely.
    Mr. Pierluisi. If you will allow her to answer.
    Mr. Gowdy. Absolutely; yes, sir.
    Mr. Pierluisi. Thank you.
    Ms. Leonhart. On your first question about new initiatives, 
we have seen an increase in productivity by our office in 
Puerto Rico. In fact, I was talking to the special-agent-in-
charge, and we are up about 20 percent in major investigations. 
We are up over 80 percent in the number of Title III intercepts 
that we are doing of these major traffickers.
    More importantly, I have over the past several years 
increased the staffing in Puerto Rico. What really hurt was 
during sequestration and the tough budget years, we were not 
able to hire. Our first full graduation class graduated last 
week or 10 days ago, and out of that class of 45 was our first 
chance to put new agents in Puerto Rico. Out of those 45 
graduates, three of those graduates are headed to Puerto Rico.
    We prioritized ahead of the Southwest Border and ahead of 
our major offices that have had lots of vacancies because I am 
about 600 agents down--we prioritized Puerto Rico so that they 
can get there and assist with the enforcement progress that we 
have seen in Puerto Rico.
    On the other, on incentives, when we have met, you know, I 
have told you I am committed to do what we can do to help 
Puerto Rico, and that is why I traveled to Puerto Rico.
    One of the things I heard was that there was a new 
incentive that the Department of Justice had approved for our 
components, and that was to given extended assignment 
incentives to agents who had been transferred to Puerto Rico 
and after a number of years, an incentive to stay there, start 
paying those.
    I approved that policy, and we started paying them. When we 
started paying them, some of the people who were getting 
another kind of bonus were paid incorrectly, and we are still 
correcting that, but I had approved the extended assignment 
incentives, and those agents have been getting paid.
    So, I would be glad to come and talk to you about the 
specifics, but know that you have a brand new incentive that 
will not get the agent to Puerto Rico, but it will help the 
agents assigned to Puerto Rico decide to continue a tour longer 
than the standard three/four/five years in Puerto Rico. I think 
that will help you be able to maintain very good talent in 
Puerto Rico.
    Mr. Pierluisi. Thank you.
    Mr. Gowdy. I thank the gentleman from Puerto Rico, and the 
Chair will now recognize the gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. I thank the gentleman from South Carolina and 
the Chairman. I do appreciate you being here. I want to thank 
the men and women throughout your agency who do a very 
difficult job. I have seen them in action. I have enjoyed going 
out on ride along's to see how they do things firsthand.
    They are professional and they do a very difficult job. I 
just want them to also know how much we care and appreciate 
what they do and how they do it, and are not thanked enough for 
the difficult job they have ahead of them, and to their spouses 
and loved ones who worry about them when they are out there 
doing their jobs. I just want to say thank you.
    I want to talk about prescription drugs for a moment. There 
is some concern that perhaps in the prescription drug process 
that there is maybe not as much involvement with those along 
the chain there, that your lack of interaction and 
communication and input from those who are dealing with these 
controlled substances, whether they be the drug stores 
themselves, those who are writing the prescriptions, and the 
consumers.
    What is it that you are doing to make sure that you 
understand that process, what they are going through, and that 
they are included as you move along to set up the rules and 
boundaries, and the second part of that is what sort of 
recourse do they have?
    If you have some new rule, are they allowed an opportunity 
to have some sort of recourse and interaction with you?
    Ms. Leonhart. Thank you for the question. You know, you 
were not here when I said it earlier, we consider everyone in 
the chain, that closed chain of distribution--we consider 
everyone partners, and we all have to do our part, and that is 
what will stop diversion.
    So, we have over the past several years implemented a 
number of ways to improve communication. I can tell you more 
recently we have done some things to improve that 
communication.
    Mr. Chaffetz. And I guess, not to cut you off here--I am 
sure there is a much more elaborate process and there are 
things that I am not aware of that I would like to become aware 
of. Is that something you can share with this Committee or with 
my office? I would sincerely appreciate it.
    Ms. Leonhart. Yes.
    Mr. Chaffetz. Because I do think there are people who are 
wondering what is the formal process or recourse for when you 
are going through one of the things, as we wrap up here, the 
disposing of prescription drugs. For instance, that was put 
into law that you were to implement that.
    It took years for you to come up with a process to do this. 
It seems rather simple to me. I am sure there are a number of 
gyrations and things you have to go through in order to get it 
just right. It took an exceptionally long period of time. 
Nevertheless, I am glad it is there.
    But it was stone silence on figuring out where you were at, 
how long it would take in order to get there. In general, are 
you going to be able to go to a pharmacist or a pharmacy or 
drug store and be able to dispose of prescription drugs that 
you did not consume or did not need? Is that something you are 
going to be able to readily do?
    Ms. Leonhart. The new disposal regulations that we put out 
are going to allow Americans on a 24/7 basis a way to dispose 
of their drugs, and one of the things they will be able to do 
is participating pharmacies will have receptacles, some of them 
will also have mail back programs that will be available.
    Citizens can also go to their participating hospitals and 
clinics and those that have a pharmacy in-house are allowed the 
same rules and will be able to have receptacles or mail back 
programs.
    We also thought it was very important to preserve the 
ability to have community groups partner with law enforcement 
to have periodic take back programs.
    So, we have made sure that we have covered the whole gamut 
from pharmacies, hospitals, clinics, police departments and 
community groups, and included a way for people within the VA 
to do it as well, and long term care facilities.
    Mr. Chaffetz. I look forward to following up with you on 
that. It is a keen interest to people in my district and some 
of the hospitals and pharmacists in our district. I look 
forward to following up with you on that program, and I yield 
back.
    Mr. Gowdy. I thank the gentleman from Utah. The Chair now 
recognizes the gentlewoman from California, Ms. Chu.
    Ms. Chu. Thank you, Chair. Actually, I wanted to follow up 
on this issue of prescription drugs because I have been 
contacted by my pharmacies who are very concerned about this as 
well.
    It has come to my attention that there have been cases 
where individuals who suffer chronic pain have faced challenges 
accessing properly prescribed pain medication. I am concerned 
that some pain sufferers are not able to gain such access.
    For example, take the case of Karen Westover of Newport 
Richey, Florida who had one knee cap removed and suffers from 
fibromyalgia. She has had pharmacies deny her prescriptions 
many times over the past couple of years.
    On one occasion, Walgreens initially refused to fill her 
prescription because Westover did not live within five miles of 
the store. When it was confirmed by the pharmacist that she 
lived within three miles of the store, Westover was still 
unable to get her prescription filled.
    Now, I understand that pharmacies have been tightening 
their rules after the DEA has imposed record fines on 
pharmacies based on allegations that they were not scrutinizing 
questionable prescriptions, but I do believe that a careful 
balance has to be struck between attacking the prescription 
drug abuse epidemic while not preventing legitimate patients 
from accessing pain medications.
    It is for this reason that I am proud to be an original co-
sponsor of H.R. 4709, the ``Ensuring Patient Access and 
Effective Drug Enforcement Act,'' which was introduced by 
another Member of this Committee, Tom Marino, and passed by the 
House in July. I believe that this bill would foster 
communication transparency between industry and the DEA.
    So, Ms. Leonhart, could you comment on how the bill could 
help in ensuring that patients with legitimate prescriptions 
for pain are not being denied their prescriptions at 
pharmacies, and could you expand on what the DEA is doing to 
ensure access for these patients?
    Ms. Leonhart. Well, I thank you for your question because 
this balance is very important to us. You know, we have a 
responsibility to make sure that patients that need the 
medication have it available, and at the same time, make sure 
that those that are participating in diversion are investigated 
by us, whether they are the pharmacy, the doctor, the retail 
distributor, or the wholesaler.
    I, too, get calls and letters from people concerned about 
not being able to get their medications. We have followed up on 
a number of them, and one of the things we have found is that 
often when someone has gone to fill a prescription, the 
pharmacist will say ``I am out of my DEA quota.'' There is no 
DEA quota to a pharmacy.
    What has happened is because of the explosion of the 
prescription drug problem, you have a number of people, drug 
seekers, with invalid prescriptions, going and getting their 
prescriptions filled, and that is the reason people with 
legitimate needs when they go to try to get it, they cannot get 
their prescriptions.
    So, we are working very closely with the pharmacies. In 
fact, we did a training last week in Phoenix. We call them 
``pharmacist drug awareness conferences.'' We have done them in 
over 20 locations. We will continue to do that.
    What we are finding out is that by sitting down together 
and going through what the drug problem is, we go through all 
the methods of diversion, we go through what the corresponding 
responsibility is, we feel that in those locations where we 
have done that, we walk away feeling that the pharmacists are 
better aware of what their responsibilities are.
    We are hoping that a lot of the efforts we have put in 
place, such as the pill mills that were shut down in Florida 
that now really is part of the reason that Florida has a 50 
percent lower overdose rate currently, that these different 
things we have put in place over the last couple of years will 
ensure and help make sure the patients who have a valid 
prescription will be able to get their medications.
    Even in the enforcement actions we take, we take that into 
consideration if we take an action on one pharmacy, what is 
that going to do to the patients who depend on that pharmacy. 
We take that all into consideration, and it is not lost on us, 
the importance of making sure that the balance is right.
    Ms. Chu. Okay. Thank you.
    Mr. Gowdy. I thank the gentlelady from California. The 
Chair will now recognize the gentleman from Virginia for any 
closing remarks he thinks are appropriate.
    Mr. Scott. Thank you, Mr. Chairman. Mr. Chairman, as I 
indicated, I would like to introduce for the record--we have 
right now two case histories.
    One points out that a girlfriend, Stephanie George, was 
sentenced based on 500 grams of crack that her boyfriend had, 
and she was given a life sentence. She did have a prior record. 
Because she had let him leave his crack there, she was part of 
the conspiracy, and the weight of the conspiracy on which the 
sentencing was based on was 500 grams.
    I mentioned Kemba Smith. This is an outline of her case. 
Her boyfriend was dealing crack. She ended up with 24.5 years. 
Both of these were subject to presidential commutations.
    There are as I indicated hundreds, possibly thousands of 
people in jail today on low level, non-violent offenses for 
which their sentences of over 10 years must have been a product 
of mandatory minimums.
    I would like these in the record and unanimous consent to 
introduce others as they come in.**
---------------------------------------------------------------------------
    **See page 25.
---------------------------------------------------------------------------
    Mr. Gowdy. Without objection.
    Well, while my friend from Virginia was talking, I could 
not help but think, Madam Administrator, about the awesome 
power that prosecutors and law enforcement agents and officers 
have that play an incredibly important role in our society, but 
the awesome power to accuse and to then prosecute and 
ultimately sentence should be sobering for all of us.
    But it is also a nice opportunity in conclusion for me to 
again thank you, women and men of DEA, who do an incredibly 
difficult job.
    You do not have to see it up front. Guys like Marino and 
others have seen it up front. You do not have to see it up 
front to appreciate how difficult it is to be in law 
enforcement.
    If you could just let the folks know that, and in 
conclusion, I just made a couple little notes. If you do have 
an opportunity to sit down with Congressman Marino, I would 
encourage you to do it. Tommy has a very compelling life 
narrative. I have the pleasure of sitting beside him.
    The way he came to become a prosecutor, working in the 
family business. U.S. attorney. State prosecutor. I know that 
you all would have a whole lot more in common than you would 
have differences. If you have an opportunity to sit down with 
Tommy, I would appreciate that.
    Anything you can do to work with drug companies so they 
view themselves as partners as opposed to targets, I would be 
grateful for, and continue to express your opinion with respect 
to matters related to sentencing reform, and the virtues of 
mandatory minimums or the shortcomings, as you see them.
    You know, I keep coming back to the biggest point of 
distinction between a safety valve or Rule 35 and 5K 1.1 and 
what the Attorney General has proposed is cooperation with law 
enforcement. I just do not think it is asking too much of those 
that want to benefit from a reduction in sentencing that they 
cooperate with law enforcement. I think that is a legitimate 
expectation.
    Mr. Scott. Mr. Chairman?
    Mr. Gowdy. Yes, sir.
    Mr. Scott. As I indicated, additional case studies have 
come on. One is Bonnie Di'Toro who was in the next room when 
her boyfriend sold an undercover agent a lot of cocaine. She 
received a 15 year mandatory minimum. Mandy Martinson was 
essentially sentenced for her boyfriend's offenses and received 
a mandatory of 15 years.
    I would like these also entered into the record.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                               __________
                               
                               
    Mr. Gowdy. I will again say what I said earlier to my 
friend from Virginia, if either of those two defendants had 
somebody as capable as you defending them, they would not be in 
prison at all, because mere presence at the scene of a crime is 
not a crime.
    But because I do respect the gentleman from Virginia, I am 
going to read the cases because I told him I would. Again, it 
reminds us of the awesome power law enforcement has, judges and 
prosecutors, and they should be ministers of justice and not 
just try to rack up as many convictions as they can rack up.
    So, with that, this concludes today's hearing. I want to 
thank our witness for attending. Without objection, all Members 
will have 5 legislative days to submit additional written 
questions for the witness or additional materials for the 
record.
    Mr. Gowdy. And with that, thank you, Madam Administrator. 
This hearing is adjourned.
    [Whereupon, at 12:42 p.m., the Subcommittee was adjourned.]
    
    
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
               
       [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
               

                                 [all]
</pre></body></html>
